TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Phoenix Collection Field Function Office
                 Properly Controlled Form 809 Receipt Books
                   and Timely Transmitted Remittances for
                                  Processing



                                           July 31, 2007

                              Reference Number: 2007-30-132




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 31, 2007



 MEMORANDUM FOR DIRECTOR, COLLECTION, SMALL BUSINESS/
                SELF-EMPLOYED DIVISION


 FROM:                         Daniel R. Devlin
                               Assistant Inspector General for Audit (Small Business and Corporate
                               Programs)

 SUBJECT:                      Final Audit Report – The Phoenix Collection Field Function Office
                               Properly Controlled Form 809 Receipt Books and Timely Transmitted
                               Remittances for Processing (Audit # 200730IE037)

 This report presents the results of our review of the internal controls over the Receipt for
 Payment of Taxes (Form 809) within the Phoenix Collection Field function1 (CFf) office. The
 overall objective of this audit was to determine whether internal controls for collecting and
 depositing remittances within the Phoenix CFf office were effective. We initiated this review
 because the Form 809 is classified as a security item, and its use is strictly controlled and limited
 to only certain employees.

 Impact on the Taxpayer
 CFf employees are required to issue a Form 809 receipt when cash is received from a taxpayer.
 All remittances secured by CFf employees must be transmitted to the appropriate designated
 Submission Processing site2 on the day collected or as soon as possible on the next business day.
 The Phoenix CFf office properly issued and accounted for Form 809 receipt books and timely


 1
   The unit in the Area Offices consisting of revenue officers who handle personal contacts with taxpayers to collect
 delinquent accounts or secure unfiled returns. Area Offices are a geographic organizational level used by the
 Internal Revenue Service business units and offices to help their specific types of taxpayers understand and comply
 with tax laws and issues.
 2
   The Submission Procession sites process paper and electronic submissions, correct errors, and forward data to the
 Computing Centers for analysis and posting to taxpayer accounts.
                    The Phoenix Collection Field Function Office Properly
                  Controlled Form 809 Receipt Books and Timely Transmitted
                                 Remittances for Processing


transmitted remittances to the Submission Processing site for processing. Effective controls over
Form 809 issuance and processing are important to ensure the accurate and timely deposit of
taxpayer payments.

Synopsis
Each Form 809 receipt book is assigned for the exclusive use of the intended employee, who is
allowed to have only one assigned receipt book at a time. To request the initial assignment of a
Form 809 receipt book for an employee, the employee’s group manager must prepare a
memorandum authorizing the employee to receive the book. All remittances secured by CFf
employees must be transmitted to the Submission Processing site on the day collected or as soon
as possible on the next business day to meet Internal Revenue Service (IRS) goals for timely
deposit and to avoid unnecessary delays in processing. Group managers must review all receipt
books assigned to their employees at least once per year to verify that all receipts have been
accounted for.
We reviewed the Form 809 receipt books issued to the 32 revenue officers assigned to 4 groups
at the Phoenix CFf office. Overall, the Form 809 receipt books were properly issued to and
maintained by the revenue officers, the annual reconciliation of issued receipt books was timely
completed, segregation of duties was adequately maintained within the groups, remittances were
timely transmitted to the Submission Processing site for processing, and receipt books were
properly returned to the Submission Processing site when revenue officers separated from the
Phoenix CFf office groups. However, revenue officers transferring between field offices were
not required to return their receipt books. In addition, 6 receipt books had not been returned as
required because no receipts had been issued within the last 3 years.
While these conditions are not in accordance with established procedures, based on the results of
our other control tests, we considered them to be of minor significance and risk. While we made
no specific recommendations, we did suggest management take the actions deemed necessary to
correct the conditions. We did not identify any employee misuse of remittances intended for the
IRS.

Response
Because this is a positive report and we made no recommendations, comments from the IRS
were not required. However, key IRS management officials reviewed the report prior to
issuance.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-5894 if you have questions or Philip Shropshire, Director,
Special Tax Matters, at (215) 516-2341.

                                                                                                2
                           The Phoenix Collection Field Function Office Properly
                         Controlled Form 809 Receipt Books and Timely Transmitted
                                        Remittances for Processing




                                             Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 2
          Form 809 Receipt Books Were Properly Controlled by the Collection
          Field Function Groups ....................................................................................Page 2
          Remittances Were Timely Transmitted to the Submission Processing
          Site for Processing ..........................................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 6
          Appendix II – Major Contributors to This Report ..........................................Page 8
          Appendix III – Report Distribution List .........................................................Page 9
         The Phoenix Collection Field Function Office Properly
       Controlled Form 809 Receipt Books and Timely Transmitted
                      Remittances for Processing




                    Abbreviations

CFf           Collection Field function
IDRS          Integrated Data Retrieval System
IRS           Internal Revenue Service
                        The Phoenix Collection Field Function Office Properly
                      Controlled Form 809 Receipt Books and Timely Transmitted
                                     Remittances for Processing




                                             Background

The Receipt for Payment of Taxes (Form 809) is an official document for receipt of cash
payments from taxpayers. Effective controls over Form 809 issuance and processing are
important to ensure the accurate and timely deposit of taxpayer payments. Each Form 809
receipt book contains 50 receipts consisting of four parts (Part 1, Posting Voucher; Part 2,
Receipt for Payment of Taxes; Part 3, Memo Copy; and Part 4, Receipt Book Copy). When a
Form 809 is issued, Parts 1 and 3 are submitted with the payment on a Daily Report of
Collection Activity (Form 795/795A) to the appropriate Submission Processing site1 Teller Unit.
The employee provides Part 2 to the taxpayer; Part 4
remains with the Form 809 receipt book.
                                                                             Collection Field function
Each Form 809 receipt book is assigned for the                employees are required to issue
exclusive use of the intended employee, who is allowed        a Form 809 receipt when cash is
                                                                 received from a taxpayer or
to have only one assigned receipt book at a time. To           when a receipt is requested by
request the initial assignment of a Form 809 receipt                    the taxpayer.
book for an employee, the employee’s group manager
must prepare a memorandum authorizing the employee
to receive the book. Collection Field function (CFf)2 employees are required to issue a Form 809
receipt when cash is received from a taxpayer or when a receipt is requested by the taxpayer for
payment made by any means other than cash (e.g., check, money order, or draft). All remittances
secured by CFf employees must be transmitted to the Submission Processing site on the day
collected or as soon as possible on the next business day to meet Internal Revenue Service (IRS)
goals for timely deposit and to avoid unnecessary delays in processing. Group managers must
review all receipt books assigned to their employees at least once per year to verify that all
receipts have been accounted for.
This review was performed in the Small Business/Self-Employed Division CFf office in
Phoenix, Arizona, and in the Wage and Investment Division Submission Processing site in
Ogden, Utah, during the period February through June 2007. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.

1
  The Submission Procession sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
2
  The unit in the Area Offices consisting of revenue officers who handle personal contacts with taxpayers to collect
delinquent accounts or secure unfiled returns. Area Offices are a geographic organizational level used by the
Internal Revenue Service business units and offices to help their specific types of taxpayers understand and comply
with tax laws and issues.
                                                                                                             Page 1
                    The Phoenix Collection Field Function Office Properly
                  Controlled Form 809 Receipt Books and Timely Transmitted
                                 Remittances for Processing




                                 Results of Review

Form 809 Receipt Books Were Properly Controlled by the Collection
Field Function Groups
We reviewed the 32 Form 809 receipt books issued to the 32 revenue officers assigned to
4 groups at the Phoenix CFf office. Specifically, we inventoried the receipt books that were
issued to the revenue officers, inspected the books for issued and unissued receipts, and
reconciled the books and receipts to the inventory list maintained at the Ogden Submission
Processing site. Figure 1 shows a total of 116 receipts had been issued from the Form 809
receipt books that had been issued to the 32 revenue officers. In addition, we reviewed the
annual reconciliations performed by the managers of the four CFf groups and evaluated the
segregation of duties within the groups. Overall, the Form 809 receipt books were properly
controlled by the CFf groups.
          Figure 1: Count of Form 809 Receipt Books and Issued Receipts
                                           Number of                Number of
                                        Revenue Officers            Form 809
                                       Issued a Form 809          Receipts Issued
                                          Receipt Book
                Group 11                        9                         60
                Group 15                        8                          5
                Group 18                        7                         28
                Group 19                        8                         23
                Total                          32                         116
              Source: Auditor analysis of the issued Form 809 Receipt Books.

Form 809 receipt books were properly issued and maintained by the CFf groups
The Form 809 receipt book is classified as a security item, and its use should be strictly
controlled and limited to only certain employees. We found the Form 809 receipt books were
properly issued to and maintained by the revenue officers assigned to the four Phoenix CFf
groups. For example, the four CFf group managers had properly prepared authorization
memoranda for the initial issuance of the receipt books and the revenue officers who were issued
the books had returned the signed acknowledgments of receipts to the Submission Processing
site Teller Unit as required. Our comparison of the serial numbers from the
Form 809 receipt books assigned to each of the 32 revenue officers to the list of issued receipt
                                                                                          Page 2
                    The Phoenix Collection Field Function Office Properly
                  Controlled Form 809 Receipt Books and Timely Transmitted
                                 Remittances for Processing



books maintained by the Submission Processing site reflected that all books were properly
accounted for. Each employee was assigned only one Form 809 receipt book at a time, each
receipt book was assigned for the exclusive use of the intended employee, and employees
maintained strict control of their receipt books.
When a Form 809 is issued, Parts 1 and 3 are submitted with the payment to the appropriate
Submission Processing site, Part 2 is provided to the taxpayer, and Part 4 remains with the
receipt book. Revenue officers should ensure Form 809 receipts are issued in numerical
sequence; unissued receipts should consist of all four parts. Our review of the 32 Form 809
receipt books showed unissued receipts were sequential, contained all four parts, and the last
issued receipt corresponded with the Submission Processing site records.
Form 809 receipt books must be returned to the issuing Submission Processing site within
10 business days of discontinued use due to employee actions such as separation, transfer to
another field office, or change of position. The receipt books also must be returned if no receipts
have been issued within the last 3 years. While Form 809 receipt books were being properly
returned to the Submission Processing site when revenue officers separated from the Phoenix
CFf groups, one revenue officer transferring between field offices was not required to return the
receipt book. In addition, 6 receipt books had not been returned as required because no receipts
had been issued within the last 3 years. While these conditions are not in accordance with
established procedures, based on the results of our other control tests, we considered them to be
of minor significance and risk. Therefore, we are making no specific recommendations; rather,
we suggest management take the actions deemed necessary to correct the conditions. We did not
identify any misuse of remittances intended for the IRS.

The annual reconciliation of issued Form 809 receipt books for the CFf groups
was conducted
At least once a year, group managers must review all official receipt books assigned to their
employees to verify that all official receipts have been accounted for. As part of the yearly
review, referred to as the Annual Reconciliation of Official Receipts, the Submission Processing
site will transmit to the appropriate CFf office an Annual Listing of Form 809 Receipt Book
Report with a cover memorandum requesting a response within 30 calendar days. The Report
will contain (by group) the name of each employee to whom a receipt book is assigned, the serial
number and receipt numbers of each receipt book assigned to an employee, and the receipt
numbers submitted through the end of the year from each book.
The Phoenix CFf office timely completed the annual reconciliation of Form 809 receipt books.
As part of the reconciliation, each group manager had verified the numerical sequence of all
remaining Form 809 receipts in each assigned receipt book and ensured all receipts issued
subsequent to the last receipt on the list were reflected on the employee’s appropriate Form 795.
The responses prepared by the managers included the name of each employee to whom a
Form 809 book is currently assigned, the serial number of each receipt book assigned to an
                                                                                            Page 3
                      The Phoenix Collection Field Function Office Properly
                    Controlled Form 809 Receipt Books and Timely Transmitted
                                   Remittances for Processing



employee, the numbers of the individual receipts in the book, and the numbers of the individual
receipts submitted through the closeout date noted on the memorandum.

Segregation of duties was adequately maintained for issued Form 809 receipt
books within the CFf groups
The issuance of Form 809 receipt books should be strictly limited to only certain employees due
to the nature of use and security classification of these documents. Managers should ensure only
appropriate employees are issued receipt books and the employees have research only command
codes in their Integrated Data Retrieval System (IDRS)3 profiles. Group managers adequately
maintained segregation of duties in the Phoenix CFf office by ensuring only appropriate
employees had been issued Form 809 receipt books and those employees issued receipt books
had research only command codes in their profiles. For example, clerical personnel were not
issued receipt books due to the inclusion of sensitive (nonresearch) command codes in their
IDRS profiles and their duties relevant to the completion of Forms 809. In addition, a review of
the IDRS profiles for each of the 32 revenue officers who had been issued Form 809 receipt
books within the 4 CFf groups showed the employees had research only command codes in their
profiles.

Remittances Were Timely Transmitted to the Submission Processing
Site for Processing
In general, any employee receiving a remittance from a taxpayer must transmit the remittance on
Form 795 via overnight, traceable mail the same day it was received or as soon as possible the
next business day, to ensure receipt in the designated Submission Processing site within 48 hours
of receipt from the taxpayer. Because cash payments must be converted to check or money
order, 1 additional day is allowed for cash conversion. Accordingly, remittances are due at the
Submission Processing sites within 3 business days from the date the IRS received the funds. If
receipts are not received timely, the Remittance Processing Unit at the Submission Processing
site will issue a Submission Processing Center Teller’s Error Advice (Form 5919) to the
originating employee’s group manager for correction.
Overall, the Phoenix CFf office groups were recording the remittances on Forms 795 and timely
transmitting them to the Submission Processing site for processing. To assess the timeliness of
remittance processing, we researched 100 remittances4 on the IDRS and found that all
(100 percent) had posted to the taxpayers’ accounts within 48 hours of receipt. We also
reviewed all Forms 5919 issued by the Submission Processing site that were associated with the

3
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records. Command codes are used by IRS employees to research and adjust taxpayer accounts
on the IDRS.
4
  Of the total 116 Form 809 receipts issued, 16 receipts were voided.
                                                                                                      Page 4
                   The Phoenix Collection Field Function Office Properly
                 Controlled Form 809 Receipt Books and Timely Transmitted
                                Remittances for Processing



116 Form 809 receipts and determined none of the remittances transmitted by the 4 Phoenix CFf
office groups were identified as not being received timely by the Remittance Processing Unit.




                                                                                       Page 5
                        The Phoenix Collection Field Function Office Properly
                      Controlled Form 809 Receipt Books and Timely Transmitted
                                     Remittances for Processing



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether internal controls for collecting and depositing
remittances within the Phoenix CFf1 office were effective. Specifically, we reviewed internal
controls over the Receipt for Payment of Taxes (Form 809). To accomplish this objective, we:
I.       Determined whether employees in the Phoenix CFf office were effectively following the
         proper controls and procedures for processing remittances received and using
         Form 809 receipt books.
         A. Identified and discussed with management procedures and guidelines for processing
            remittances received, including the timely processing of remittances and use of
            receipt books.
         B. Conducted a walkthrough of the Phoenix CFf office to determine whether controls for
            processing remittances were followed and remittances were properly safeguarded.
         C. Evaluated the timeliness of processing remittances.
             1. Performed IDRS2 research to identify the posting of all remittances to taxpayer
                accounts.
             2. Determined the timeliness of the remittances processed and identified any delay
                trends.
         D. Performed a physical verification of assigned Form 809 receipt books to determine
            whether they were properly controlled and used.
             1. Selected and reviewed all 32 receipt books assigned to the 32 revenue officers in
                the 4 groups at the Phoenix CFf office.
             2. Determined whether the revenue officers assigned receipt books had IDRS
                adjustment capabilities.
             3. Secured receipt books from the revenue officers and copied all issued receipts.



1
  The unit in the Area Offices consisting of revenue officers who handle personal contacts with taxpayers to collect
delinquent accounts or secure unfiled returns. Area Offices are a geographic organizational level used by the IRS
business units and offices to help their specific types of taxpayers understand and comply with tax laws and issues.
2
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 6
                       The Phoenix Collection Field Function Office Properly
                     Controlled Form 809 Receipt Books and Timely Transmitted
                                    Remittances for Processing



             4. Determined whether the unissued receipts were still in numerical sequence and all
                four parts were intact.
             5. Determined whether any clerical personnel were issued receipt books.
             6. Obtained copies of the authorization memoranda for the initial receipt book
                issuances and the signed receipt pages for the current receipt books.
             7. Determined whether receipt books were returned to the issuing Submission
                Processing site1 if receipts had not been issued within 3 years.
             8. Identified employees who had recently transferred, separated, or no longer
                required use of receipt books and determined whether the books had been
                returned to the issuing Submission Processing site.
             9. Determined whether the Phoenix CFf office timely completed the annual
                reconciliation of receipt books and compared the results with the reconciliation
                completed in Step I.D.1., to determine whether discrepancies were identified and
                properly resolved.
        E. Conducted a field visitation at the Submission Processing site3 in Ogden, Utah, and
           verified whether the Form 809 receipts (in the receipt books selected in Step I.D.1.)
           submitted by the revenue officers in the Phoenix CFf office had been received and
           accounted for properly.




3
 The Submission Procession sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                           Page 7
                   The Phoenix Collection Field Function Office Properly
                 Controlled Form 809 Receipt Books and Timely Transmitted
                                Remittances for Processing



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Philip Shropshire, Director
Van A. Warmke, Audit Manager
Richard J. Viscusi, Senior Auditor
Mike J. Della Ripa, Auditor
Erlinda K. Foye, Auditor




                                                                                        Page 8
                   The Phoenix Collection Field Function Office Properly
                 Controlled Form 809 Receipt Books and Timely Transmitted
                                Remittances for Processing



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Small Business/Self-Employed Division SE:S:C




                                                                                     Page 9
